gs E-Mail Address: 1115 H Street, N.E.
Est oad briefs@wilsonepes.com Washington, D.C. 20002

Hi MTG Web Site: Tel (202) 789-0096

www.wilsonepes.com Fax (202) 842-4896

No. 20-828

FEDERAL BUREAU OF INVESTIGATIONS, et al.,

Petitioners,
v.

YASSIR FAZAGA, et ai.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on September 28, 2021, three (3) copies of the BRIEF OF PROJECT
FOR PRIVACY & SURVEILLANCE ACCOUNTABILITY AS AMICUS CURIAE SUPPORTING
PLAINTIFF-RESPONDENTS in the above-captioned case were served, as required by U.S.
Supreme Court Rule 29.5(c), on the following:

ACTING SOLICITOR GENERAL CATHERINE MARY AGNES CARROLL

UNITED STATES DEPARTMENT OF JUSTICE WILMER CUTLER PICKERING HALE AND DORR

950 Pennsylvania Avenue, NW 1875 Pennsylvania Avenue, NW

Washington, DC 20530-0001 Washington, DC 20006

202-514-2217 202-663-6000

Counsel for Federal Bureau of Counsel for J. Stephen Tidwell and
Investigation, et al. Barbara Walls in support of petitioners

AHILAN T, ARULANANTHAM ALEXANDER HOWARD COTE

UCLA SCHOOL OF LAW WINSTON & STRAWN LLP

385 Charles Young Drive East 333 S. Grand Avenue, 38th Floor

Los Angeles, CA 90095 Los Angeles, CA 90071

310-825-1029 213-615-1993

Counsel for Yassir Fazaga, et al. Counsel for Paul Alien, Kevin Armstrong,

and Pat Rose in support of reversal
The following email addresses have also been served electronically:

SupremeCtBriefs@USDOJ.gov
arulanantham@law.ucla.edu
catherine.carroll@wilmerhale.com

acote@winston.com
ejaffe@schaerr-jaffe.com hy N,

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
1115 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subserboata je this 28th day of September 202
~ aoe Ve,

  
    

   

COLIN CasEY HoGaN
NOTARY PUBLIC
District of Columbia
My commission expires April 14, 2022.
